*

FILED
03/25/2020

Bowen Greenwood

IN THE SUPREME COURT OF THE STATE OF MONTANA

CLERK OFTHE SUPREME COURT
STATE OF MONTANA

Case Number: DA 17-0653

DA 17-0653

FILED
STATE OF MONTANA,

MAR 2 5 2020

Plaintiff and Appellee,
v.

JEROMEY GLENN JONES,

Bowen Greenwood
Clerk of Supreme Court
State of Montane

ORIGWs

ORDER

Defendant and Appellant.
Appellant. Jeromey Glenn Jones, has filed a Petition for Rehearing. This Court issued
its Opinion in the above entitled action on January 14, 2020. We will grant a petition for
rehearing only upon the following grounds: that the Court overlooked some fact material to
the decision; that tire Court overlooked some question presented by counsel that would have
proven decisive to the case: or that the Court's decision confl icts with a statute or controlling
decision not addressed by the Court. M. R, App, P. 20(1 )(a).
Upon review of the Appellant5s Petition, this Court determines that none of tire
conditions listed in M, R. App. 20fl)(a) have been met. Accordingly,
IT IS ORDERED that the Appellant’s petition for rehearing is DENIED.
IT IS FURTHER ORDERED that the Clerk of this Court give notice of this Order to
counsel of record and to the Honorable Robert L, Deschamps III. Presiding Judge.
dated

this

Un­

day of March. 2020.

Chief Justice
£

r- '

m*.

JL

V

v
; ‘I'

- 'K%--

».

£

% ?)#pi

%

':

y»7

Tt.;w> syS5S 3It-- ■ ^ i: j-

L

4S

Justices

/

■-

* K

*

•

^

S'-

T

i

it

v, i~A-ty

'- , ;• i.

■v

;£3yzs:v:~£;:^ ■ ;/sitSDS

-• r
•S^

-

.x.

**>
*■

•- r- ■

„VJ-

•-V-.-

-

7 -c> ;fV; ;.i •

2

•-

FILED
01/14/2020

Bowen Greenwood
CLERK OF THE SUPREME COURT
STATE OF MONTANA

DA 17-0653

Case Number: DA 17*0653

IN THE SUPREME COURT OF THE STATE OF MONTANA
2020 MT 7

STATE OF MONTANA,
Plaintiff and Appellee,
v.

JEROMEY GLENN JONES,
Defendant and Appellant.

APPEAL FROM:

District Court of the Fourth Judicial District,
In and For the County of Missoula, Cause No. DC 16-627
Honorable Robert L. Deschamps, III, Presiding Judge

COUNSEL OF RECORD:
For Appellant:
Chad Wright, Appellate Defender, Alexander H. Pyle, Assistant Appellate
Defender, Helena, Montana
'
For Appellee:
Timothy C. Fox, Montana Attorney General, Mardell Ployhar, Assistant
Attorney General. Helena, Montana
Kirsten H. Pabst, Missoula County Attorney, Ryan Mickelson, Deputy
County Attorney, Missoula, Montana

Submitted on Briefs: October 16, 2019
Decided: January 14, 2020
Filed:

Justice Laurie McKinnon delivered the Opinion of the Court.

^1

On May 31, 2017, a jury in the Fourth Judicial District Court, Missoula County,

found Jeromey Glenn Jones (Jones) guilty of assault with a weapon and aggravated assault.
For each count, the District Court imposed a ten-year sentence, with five years suspended,
and ran the sentences concurrently. Jones appeals his convictions, raising two issues:
1. Did the District Court violate Jones’s constitutional right to self-representation by
refusing his request to represent himselfat the February 14, 2017 omnibus hearing,
but otherwise allowing Jones to represent himselffor the duration of his case?
2. Did the District Court err in denying Jones a new trial after the court considered
the victim’s post-trial recantations and the overwhelming evidence ofJones’s guilt
produced at trial?

We affirm.

FACTUAL AND PROCEDURAL BACKGROUND
^J3

On November 15, 2016, Jones and his girlfriend, Destinee Dietsch (Dietsch), were

arguing in their trailer after Dietsch confronted Jones about pornography she discovered
on his phone.

Jones became violent, punching and kicking Dietsch several times;

slamming her head into the trailer wall; and strangling Dietsch, nearly causing her to pass
out. Jones used a knife to cut Dietsch’s face around her eye and then threatened to kill her,
holding the knife to her face. Dietsch escaped and, despite cold weather, ran to the Town
Pump a half-mile away without shoes. A Town Pump employee, Ayla Godoy, saw Dietsch
come “stumbling through the door” with “blood all over her face.” Dietsch was very upset
and exclaimed, “he’s going to kill me.” When a store employee who knew Jones and
2

Dietsch announced that Jones was coming, Dietsch tried to crawl over Godoy and a table
to get away from him. Employees contacted the police and attempted to “close her
wounds” so Dietsch was “not bleeding everywhere.”
|4

Law enforcement responded immediately. Officers identified Dietsch, who was

distraught and crying. While the officers were talking to Dietsch, Jones entered the store.
Jones was defensive and voiced displeasure at law enforcement, clenching his fists and
standing in a “bladed” position. Following his arrest, a knife was found in Jones’s pocket
that matched the description Dietsch gave of the knife used to cut her. Officers also
observed Jones had numerous scratch marks up and down his forearms, wrists and elbows,
which were consistent with defensive wounds made by a victim trying to escape an assault.

H5

Dietsch was taken to the hospital for treatment. She had a broken nose; her face

was swollen; she had bruising around her neck; and scratches, abrasions, and bruises all
over her back. Dietsch explained to a nurse that she was kicked, strangled, and abused by
her boyfriend.
Tf6

Dietsch gave law enforcement permission to search the trailer where she lived with

Jones. Inside, officers observed blood on a sheet and damage to the wall caused by the
impact of Dietsch’s head during the assault.
1J7

Jones was initially represented by public defender Reed Mandelko (Mandelko). On

January 10, 2017, the District Court held an omnibus hearing and Mandelko prepared an
omnibus form. Jones indicated he would not sign the form and that he did not want
Mandelko to represent him.

Jones said he wanted to represent himself. The court
3

expressed it was reluctant to allow Jones to represent himself and questioned Jones
extensively regarding his educational background and legal training. The court warned
Jones that other defendants who have chosen to represent themselves “end up making a
mess of things” and asked Jones, “[a]re you willing to conform with the rules that I set
down on how to proceed in a courtroom?” Jones replied, “[y]es, sir.” The court granted
Jones’s request to represent himself and continued the omnibus hearing one week to allow
Jones to read the omnibus form and make any changes he saw necessary.

H8

On January 17, 2017, the court held another omnibus hearing. Jones represented

himself and Mandelko was present as standby counsel. The court asked Jones if he had an
omnibus form ready.

Jones replied, “I do have the omnibus form but it was what

Mr. Mandelko signed and filled out and I do not agree with that.” The court responded
that “you have the ability, sir, as your own attorney to fill out that omnibus form” and the
court tried to go through the omnibus form with Jones. Jones, however, was unresponsive
and did not answer the court’s questions. Jones kneeled down on the floor of the
courtroom, crying. The court expressed concern “in view of this behavior in the courtroom,
if we should have the defendant’s fitness evaluated.” Jones stated, “I’m sorry, your honor,
I just got given something that I can’t get my head right.” Following Jones’s emotional
behavior, the court concluded, “I don’t find that you’re at the minimum, competent to
represent yourself.” Jones replied, “I’m really not sir.” As a result, the court reinstated
Mandelko as counsel. Jones then indicated, “I want nothing to do with this man.”

4

Mandclko requested a two-week continuance of the omnibus hearing. ' The court
rescheduled the omnibus hearing, again stating, “I really am concerned about his fitness.”

19

The record reflects a third omnibus hearing was held February 7, 2017, although

Jones has not provided this Court with a transcript. The minutes, however, indicate that
Mandelko presented the court with a completed omnibus form, which Jones refused to sign.
The court apparently questioned Jones, but he refused to answer. After this omnibus
hearing, Mandelko filed a motion requesting a hearing on Jones’s desire to represent
himself. The court scheduled a hearing for February 14, 2017.
110

On February 14, 2017, Mandelko indicated to the court that Jones Still wished to

represent himself; The court recalled that Jones had previously “melted down” and was
concerned that Jones might not be competent to represent himself. Mandelko explained
that Jones was emotional because for a brief time there was a question whether Dietsch
was alive. Mandelko Suspected that Dietsch had committed suicide due to information he
discovered on Facebook.

Mandelko had been corresponding with an investigator to

confirm Dietsch’S'death. Jones was provided these emails during the omnibus and mistook
the contents to indicate that Dietsch had in fact committed suicide. The Court asked Jones,
“[w]ell, tell me at this point then, why you want to represent yourself:”: Jones replied:

/■

Because, 1 don’t know what to believe, your honor. I recently got a letter
from the victim’s so-called sister, as well, stating that she is dead and stating
that she talked to the district attorney and to my attorney afterwards as well.
Tell you the truth, all I want - the best way for me to fight this case is to be
; on the streets and actually get OR [own recognizance] to fight this case on
the streets, to grab my computer and grab all my proof.

5

■I

“[b]ecause of what I have to deal with every night I go to bed; Because every time I close
my eyes I see your face. It’s because of the things you did tome.”
^[14

The State called several other: witnesses who substantiated that: Dietsch was

barefoot when she ran into the Town Pump; she came into the store terrified, bloody, and
injured; Dietsch told officers and medical personnel Jones had beaten her; there was blood
on a sheet and damage ‘to the wall of their trailer; and Dietsch sustained a broken nose,
cuts, and bruising. Jones did not testify.
H15 .. After trial, Dietsch called the prosecutor to inform him that she “made it up,”
referring to her allegations against Jones. She told the prosecutor she went off “the cliff,
which caused her injuries, and she lied in order to prevent Jones from moving to California
without her. The prosecutor- assigned an investigator to-follow up with Dietsch.- The
investigator interviewed Dietsch on June 13, 2017 and reported that “[Dietsch] wanted to
go to court and lie at sentencing in an effort to get Jones the lightest sentence .possible.”
The investigator related that Dietsch believed that if she told the judge it had not happened,
he would let Jones out of jail sooner. Dietsch confirmed she was “terrified” during the
attack.
1J16

At sentencing, the Court addressed Jones’ s “Notice of Appeal and Motion for a New

Trial” in which Jones argued for a new trial based on Dietsch’s inconsistent statements and
recantations. Jones’s motion stated: “I have statement by alleged victim saing [sic] ‘she
made it up’ ‘lied to all the hearsay witnesses’ ‘and self inflicted [sic] the injuries’ and ‘I
was asleep when this occurred. . . .’”

In response to Jones’s allegations, the court
8

\

acknowledged Dietsch’s recantations, stating “I know that she’s made various inconsistent
statements. She actually made various inconsistent statements during the course of this
trial.” However, the District Court found Jones’s argument unpersuasive, concluding that
the evidence against Jones was overwhelming. The District Court denied Jones’s motion
for a new trial.
STANDARDS OF REVIEW
117

The validity of a Faretta1 waiver is a mixed question of law and fact reviewed de

novo. State v. Barrows, 2018 MT 204, 1 9,392 Mont. 358,424 P.3d 612 (citation omitted).
Before a court may grant a request for self-representation, it must first determine that the
defendant’s waiver of the right to counsel is unequivocal, as well as voluntary, knowing,
and intelligent. State v. Langford, 267 Mont. 95, 99, 882 P.2d 490, 492 (1994). Denial of
the constitutional right to self-representation on the basis that a defendant could not
adequately represent himself constitutes reversible error. State v. Swan, 2000 MT 246,
1 18, 301 Mont. 439, 444, 10 P.3d 102, 105 (citation omitted).
118

This Court reviews a district court’s denial of a motion for a new trial for an abuse

of discretion. State v. Chavis, 2019 MT 108,1 7, 395 Mont. 413, 440 P.3d 640. A trial
court’s interpretation of the law, however, is reviewed de novo. State v. Johnson, 2000
MT 2901 13, 302 Mont. 265, 14 P.3d 480.

Faretta v. California, 422 U.S. 806, 95 S. Ct. 2525 (1975).
9

Cy

DISCUSSION
^[19

1. Did the District Court violate Jones’s constitutional right to self-representation
by refusing his request to represent himself at the February 14, 2017 omnibus
hearing, but otherwise allowing Jones to represent himselffor the duration ofhis
case?
.
'
.

][20

Jones first asked to proceed without counsel at the January 10, 2017 omnibus

healing. The District Court granted his request and continued the omnibus hearing to allow
Jones time to prepare. At the second omnibus hearing on January 17, 2017, the District
Court, based on Jones’s irrational and emotional behavior during the hearing, reappointed
counsel and questioned whether Jones was fit to proceed. Jones was unresponsive to the
court’s questions and highly distraught. His demeanor and actions justified the court’s
concern. Based on the record, we have no difficulty concluding that the District Court was
correct in appointing counsel and proceeding cautiously forward.
^[21

Thereafter, Jones again requested to waive counsel and the District Court set a

hearing on his request for February 14, 2017. Jones contends that during its Faretta
colloquy at this hearing the District Court improperly included inquiries regarding Jones’s
“lawyering skills and education” and that Jones properly waived his right to counsel. Jones
contends this ultimately resulted in reversible error unsusceptible to harmless error review.
^22

A defendant has a right to represent himself in a state criminal trial upon a

defendant’s waiver of his Sixth Amendment right to counsel and an unequivocal invocation
of the right to self-representation. Faretta, 422 U.S. at 835, 95 S. Ct. at 2541. This is
generally referred to as a Faretta waiver. To effectuate a Faretta waiver the invocation of
the right to self-representation must be unequivocal, voluntary, knowing, and intelligent.
10

Barrows, .20. “The competence that is required of a defendant seeking to waive his right
to counsel is the competence to waive the right, not the competence to represent himself.”
Godinez v. Moran, 509 U.S. 389, 399, 113 S. Ct. 2680, 2687 (1993). Although a defendant
need not himself have the skill and experience of a lawyer in order to competently and
intelligently choose self-representation, he should be made aware of the dangers and
disadvantages of self-representation, so that the record will establish that “he knows what
he is doing and his choice is made with eyes open.” Faretta, 422 U.S. at 835, 95 S. Ct. at
2541 (citation omitted).
|23

When addressing the sufficiency of the District Court’s colloquy, we find our prior

holding in State v. Swan, 2000 MT 246, 301 Mont. 439, 10 P.3d 88, is instructive. In Swan,
during a Faretta colloquy, the district court inquired as to why Swan wished to represent
himself, to which Swan replied he wanted different counsel and “access to the law library
in my own defense.” Swan, If 10. The district court responded that representation by an
attorney did not come with access to the law library. The court instructed, “[i]f you proceed
on your own, you’re going to be held to the same standards that an attorney would be held.
Now, if you want access to-Primarily, you’ll be given limited access to a law library, but
you’ll not be represented by an attorney. Do you understand that?” Swan, | 10. Swan
indicated he did. The court asked Swan if he wished to represent himself. Swan responded
that he did. Swan, Tf 10. The court expressed doubt that Swan was capable of representing
himself and, further, expressed that experienced counsel was needed due to the “nature and
seriousness of the offense....” Swan, ^f 11.
11

f24

This Court affirmed the district court’s denial of Swan’s request of

self-representation, holding:
While it is true that the District Court expressed doubt about the wisdom of
Swan’s wish to represent himself, those comments were not made, and the
. court did not deny the request, until after Swan had clarified that what he
actually wanted was to have different counsel appointed to represent him and .
to be given access to the law library to assist in his own defense. What the
District Court did not say in making its ruling, but what is apparent from the
record, is that Swan’s was an in-the-alternative request for
self-representation.
Swan, f 19. The Court explained that although Swan asked to be allowed to represent
himself, what he actually hoped for was that new counsel would be appointed to represent
him and that he would be allowed to use the law library. The “record as a whole” revealed
that Swan’s request for self-representation was “anything but unequivocal.” Swan, If 25.
f25

Here, as in Swan, the District Court expressed doubt that Jones was capable of

representing himself. The record indicates the District Court did not believe Jones
possessed the requisite education and legal skills to effectively defend himself. It is true
this ultimately “has no bearing upon his competence to choose self-representation.”
Godinez, 509 U.S. at 400, 113 S. Ct. at 2687. (Emphasis in original.) However, as in
Swan, the District Court did not express these doubts, nor deny Jones’s request, until after
Jones clarified plainly his misguided motivation for waiving his right to counsel.
Specifically, Jones expressed he wished to represent himself because he could not ascertain
whether Dietsch was alive, and further that all he wanted was to “get [out on his own
recognizance] to fight this case on the streets,” a fact this Court agrees with the District
Court is not relevant to waiver.
12

]f26

We conclude Jones’s response to the District Court’s question of why he wanted to

represent himself demonstrated Jones did not understand the right he was relinquishing.
Montana law requires District Courts to “ascertain[] that the waiver [of the right to counsel]
is made knowingly, voluntarily and intelligently.” Section 46-8-102, MCA. Here, it is
apparent from the record that Jones perceived a correlation between self-representation and
being released from jail, where in fact there was none. Thus, his waiver could not be said
to be “knowingly” made.

The record demonstrates that the District Court correctly

ascertained Jones had not made a valid waiver. Accordingly, the District Court did not
violate Jones’s right of self-representation when it denied his request at the February 14,
2017 omnibus hearing.
127

Moreover, when Jones renewed his request of self-representation, the District Court

set another hearing on March 14, 2017. At that hearing, the District Court found Jones had
intelligently, knowingly, and voluntarily waived his right to counsel and granted Jones’s
request of self-representation. Thereafter, Jones represented himself for the duration of the
proceedings. Accordingly, we conclude, based on the entire record, that Jones’s right of
self-representation was not violated.
^[28

As a final consideration of Jones’s right of self-representation, the record here

compels certain observations. The U.S. Supreme Court has recognized a defendant’s
choice of self-representation is not “wise, desirable or efficient.” Martinez v. Court of
Appeals, 528 U.S. 152, 161, 120 S. Ct. 684, 691 (2000). Yet in Faretta, the Supreme Court
upheld it as a fundamental right out of “respect for the individual., . .” Faretta, 422 U.S.
13

at 834 95 S. Ct. at 2540. The defensibility of this policy justification may be diminished,
however, when the defendant is no longer the only soul “who bears the personal
consequences” of his choice to self-represent. Faretta, 422 U.S. at 835 95 S. Ct. at 2541.
Enforcement of the self-representation right may become problematic where it affords a
defendant the opportunity to personally intimidate or interrogate the victim.
^29

Here, the District Court had the unenviable task of ensuring Jones, who stood

accused of brutally beating Dietsch, “had a fair chance to present his own case in his own
way,” including interviewing Dietsch. McKaskle v. Wiggins, 465 U.S. 168,177,104 S. Ct.
944, 950 .(1983). At trial, the court allowed Jones to interview Dietsch during a recess prior
to her testimony. The court stated, “[h]e’s representing himself. He has a right to certainly
interview the victim.” However, the court also recognized, “[e]ven if you’re representing
yourself, I’m going to prohibit you from having personal contact with the victim. If you’re
going to contact her for some reason, you’re going to have to find some private investigator
or attorney or somebody to contact her.” As for the parameters of the interview, the court
ruled “it shouldn’t be a one-on-one. And I will authorize that not only law enforcement
but [the prosecutor] be present during the course of that interview.” The court further
admonished Jones, “[yjou’ve got a right to question her about what her testimony will be.
You don’t have a right to intimidate her.”
Tf30

Other measures may also be suitable to protect a defendant’s right of

self-representation and to protect a victim from further abuse. The appropriateness of any

14

particular measure will depend on the facts and circumstances of each case.2 We only
observe, that here, the District Court foresaw the need for some measures to be taken and
appreciated the competing interests of protecting a victim from further abuse by her
perpetrator, while nonetheless protecting a defendant’s right of self-representation.
f31

2. Did the District Court err in denying Jones a new trial after the court considered
the victim’s post-trial recantations and the overwhelming evidence of Jones’s
guilt produced at trial?

H32

Section 46-16-702(1), MCA, authorizes a trial court to “grant the defendant a new

trial if required in the interest of justice.” To prevail on a motion for a new trial grounded
on newly discovered evidence, the defendant must satisfy a five-part test: (1) the evidence
must have been discovered since the defendant’s trial; (2) the failure to discover the
evidence sooner must not be the result of a lack of diligence on the defendant’s part; (3) the
evidence must be material to the issues at trial; (4) the evidence must be neither cumulative
nor merely impeaching; and (5) the evidence must indicate that a new trial has a reasonable

2 By way of example only, some courts have upheld appointment of standby counsel to question
victims in order to avoid having victims endure questioning from their alleged attacker. See Fields
v. Murray, 49 F.3d 1024, 1034-36 (4th Cir. 1995) (affirming the trial court’s refusal to allow the
self-representing defendant to question children that he sexually abused as well as the decision to
appoint an attorney to pose the questions that the defendant wished to ask); Applegate v.
Commonwealth, 299 S.W.3d 266, 273 (Ky. 2009) (“Even if a defendant is granted the right to
cross-examine witnesses, there is no constitutional right to personally cross-examine the victim of
his crimes.”); Partin v. Commonwealth, 168 S.W.3d 23, 28-29 (Ky. 2005) (approving the refusal
to allow the self-representing defendant to personally cross-examine his wife, twenty-year-old son,
and other adult victims whom the defendant held at gunpoint). Other courts have held standby
counsel’s participation in this capacity during trial infringes on the defendant’s self-representation
right. See State v. Folk, 151 Idaho 327, 336-39, 256 P.3d 735, 744-47 (Idaho 2011) (reversing a
conviction for lewd conduct with a child where defendant was required to write down any
questions he had for the alleged victim and have standby counsel read them because this practice
destroyed the jury’s perception that the defendant is representing himself).
15

probability of resulting in a different outcome. State v. Clark, 2005 MT 330, K 34, 330
Mont. 8, 125 P.3d 1099.
T[33

Jones contends that the Clark factors are satisfied and a new trial is required. Jones

further contends that because the District Court did not analyze the post-trial recantations
under Clark, the court erred by denying his motion for new trial. The State “acknowledges”
that the District Court did not cite to Clark in its denial of a new trial but asserts “it is
unnecessary to remand the case to the District Court because the court explained its reasons
for denying the motion” and these reasons, “demonstrate that Jones’s new evidence does
not satisfy the fifth element of the Clark test.” We, agree with the State.
^[34

The State concedes the first four Clark factors are met and, accordingly, focuses its

analysis on the fifth factor. “The fifth element, pertaining to reasonable probability of a
different outcome, is most likely to be the crux of any district court’s evaluation of new
trial motions based on new evidence.” Clark, \ 36. Further, it is understood that the
recanting witness lacks credibility by virtue of the fact that he has already lied at least
once, (citation omitted), but the function of the district court in this instance is to examine
how the recanting witness’s credibility may affect a new jury’s verdict. Clark, ^ 37.
^[35

Although the District Court jdid not reference the Clark factors in its denial, here, in

contrast to Clark, we are able to “glean from the record the District Court’s reasons for
denying the motion for a new trial.” Clark, ^ 42. Importantly, the District Court heard
testimony from Dietsch during trial that she loved Jones, was trying to protect Jones, and
did not want to testify against him. The state asked Dietsch, “you had said earlier that you
16

didn’t remember. Is there a reason you said that earlier?” Dietsch replied, “[b]ecause I
still love him.” As a result, Dietsch testified inconsistently about the circumstances of the
assault, first testifying she could not remember but then later stating Jones hit her, choked
her, and threw her around “like a rag doll.” She testified he hit her head against the wall
and held a knife to her face and cut her eye. Because it is “understood that the recanting
witness lacks credibility,” Clark,

37, the weight of Dietsch’s post-trial recantation is

diminished when considered in light of the inconsistencies of her trial testimony.
|36

Also, the State’s investigator interviewed the victim on June 13, 2017, and Dietsch

again recanted stating “she wanted to go to court and lie at sentencing in an effort to get
Jones the lightest sentence possible. She believed that if she told the judge it had not
happened, he would let Jones out of jail sooner.” Thus, the weight of Dietsch’s post-trial
recantation was further diminished. Lastly, Jones contends this report was “unsigned and
unsworn” and therefore “meriting little if any weight.” However, Jones’s statements to the
prosecutor indicating she “made it up” were similarly “unsworn.”
^{37

In addressing Jones’s motion, “the function of the district court [was to] examine

how the recanting witness’s credibility may affect a new jury’s verdict.” Clark, Tf 37. The
court stated it knew that Dietsch had made “various inconsistent statements.” These
statements included the inconsistent statements at trial; Dietsch’s first post-trial recantation
that she “made it up”; and the second recantation contained in the investigator’s follow-up
report, that she did not make it up and was “terrified.” After considering the evidence at
trial, the new evidence, and the State’s response to the new evidence, the court’s task was
17

to “examine how the recanting witness’s credibility may affect a new jury’s verdict” using
the “reasonable possibility” standard. Clark, ^ 34. “[T]he reasonable probability standard
adopted [in Clark] properly leaves to the trial judge determinations of weight and
credibility of the new evidence, and to consider what impact, looking prospectively at a
new trial with a new jury, this evidence may have on that new jury.” Clark, f 36.
|38

To this point, the District Court stated, “I want to say that the evidence against you

appeared overwhelming.” “The court does not pass on the ultimate truthfulness of the
recanting testimony [...] the court leaves this determination to the fact-finder.” Crosby v.
State, 2006 MT 155, f 21, 332 Mont. 460, 139 P.3d 832. However, it follows from the
District Court’s observation that the trial evidence “appeared overwhelming,” that two
post-trial and inconsistent recantations from Dietsch, who had already testified
inconsistently at trial, would have a low impact on a new jury. The record shows the state’s
case was in no way dependent on the reliability of the testimony of Dietsch. Rather, there
was extensive forensic evidence depicting Dietsch’s injuries; defensive injuries to Jones;
damage to the inside of the trailer; video footage of Jones’s interaction with law
|

enforcement; and testimony from witnesses at the Town Pump, investigating officers, and
medical personnel at the hospital where the victim was treated. “[Reasonable probability”
called for the District Court to look to all the evidence in the case for its weight and
credibility and determine, given the addition of new evidence, what “impact” the new
evidence would have on the jury. Clark, 136. The District Court did not specifically find
on the record that the evidence did not indicate “a new trial ha[d] a reasonable probability
18

U

of resulting in a different outcome.” Clark, 37. However, the District Court still reached
the correct conclusion that the evidence “appeared overwhelming” and that a different
outcome, following a new trial, was highly unlikely. This Court concludes the District
Court did not abuse its discretion in denying Jones’s motion for a new trial. Chavis, | 7.
CONCLUSION
^|39

We conclude that Jones’s right of self-representation was not violated. We further

conclude the District Court correctly applied the law and did not abuse its discretion in
denying Jones’s motion for a new trial.
]f40

Jones’s convictions are affirmed.

/s/ laurie McKinnon
We concur:
/s/ mike McGrath
/S/ JAMES JEREMIAH SHEA
/S/ DIRK M. SANDEFUR
IS/ JIM RICE

19

-

FILEL

ORi fcikAl

STATE OF MONTANA,
Plaintiff and Appellee,

CLERK OF THE SUPREME COURT
STATE OF MONTANA

Case Number: DA 17-0653

FILED
FEB 12 2019
Bowen Greenwood
Clerk of Supreme Court
State of Montana

ORDER

v.
JEROMEY GLENN JONES,
Defendant and Appellant.

Representing himself, Jeromey Glenn Jones moves this Court for appointment of
new counsel in his criminal appeal. It appears that this motion was not served on counsel.
Jones is currently represented by appointed counsel, Alex Pyle, of the Appellate Defender
Division (ADD). Jones appeals an August 31, 2017 Missoula County District Court
Judgment which imposed two, concurrent ten-year sentences with five years suspended to
the Department of Corrections after a jury found him guilty of felony assault with weapon
and felony aggravated assault.
Jones asserts inadequate representation by counsel. He requests to terminate his
relationships with the ADD, namely Chad Wright and Alex Pyle. Jones adds that he does
\

■e

02/12/2019
Bowen Greenwood

IN THE SUPREME COURT OF THE STATE OF MONTANA
DA 17-0653

• t

not want to represent himself but “want[s] nothing to do with the [ADD]” because motions
have been filed and decisions have been made without consulting him.
Jones’s failure to serve his motion upon all counsel of record results in its denial.
M. R. App. P. 10(2) and 16(1). We also put forth that Jones does not have the right to
counsel of his choice and, similarly, he may not insist that counsel advance every theory
of his defense. State v. Dethman, 2010 MT 268, ^ 15, 358 Mont. 384, 245 P.3d 30. “So
long as appointed counsel is rendering effective assistance, a defendant may not demand
dismissal or substitution of counsel simply because he or she lacks confidence in, or does
not approve of, his or her appointed counsel.” Dethman, f 15 (citing State v. Pepperling,

i

}

<

I

177 Mont. 464, 472, 582 P.2d 341, 346 (1978); see also State v. Craig, 21A Mont. 140,
148-49, 906 P.2d 683, 688 (1995); and State v. Colt, 255 Mont. 399, 404, 84} P.2d 747,
750 (1992)).
This Court cautions Jones to refrain from filing pleadings on his own behalf while
represented by counsel in an appeal. M. R. App. P. 10(l)(c). Accordingly,
IT IS ORDERED that Jones’s Motion to Appoint New Counsel is DENIED.
The Clerk is directed to provide a copy of this Order to counsel of recordialong with
t

a copy of his motion and to Jeromey Glenn Jones personally.
DATED this L't*- day of February, 2019.

X

Chief Justice

✓

Justices

!
1
i

;

2

}

>

FILED
01/29/2020
Bowen Greenwood

IN THE SUPREME COURT OF THE STATE OF MONTANA

CLERK OF THE SUPREME COURT
STATE OF MONTANA

Case Number: DA 17-0653

No. DA 17-0653
STATE OF MONTANA,
Plaintiff and Appellee,
v.
JEROMEY GLENN JONES,
Defendant and Appellant.

ORDER

Upon consideration of Counsel's motion for extension of time
under Mont. Ri App. P. 20(2)(c), as well as Counsel’s motion to
withdraw as counsel of record, and good cause appearing,
IT IS HEREBY ORDERED that Appellant is granted an extension
of fifteen days from the date of this Order, within which to prepare, file,
and serve Appellant’s petition for rehearing.
IT IS FURTHER ORDERED that Counsel’s motion to withdraw
as counsel of record is GRANTED; Appellant may file a petition for
rehearing pro se.
I• ►

•..

r

IT IS FURTHER ORDERED that the Clerk of this Court give
notice of this Order by mail to all counsel of record and to Appellant at
his last known address.

...O'

*

Electronically signed by:
Mike McGrath
Chief Justice, Montana Supreme Court
January 29 2020

Additional material
from this filing is
available in the
Clerk's Office.

